No.
INTHE

~upreme ([ourt of tbe Wniteb ~tates
ALL AMERICAN CHECK CASHING, INC., ET AL.,

Petitioners,
V.
CONSUMER FINANCIAL PROTECTION BUREAU,

Respondent.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 30th day of September, 2019, I caused three copies of the Petition for a Writ
of Certiorari Before Judgment to be served by third-party commercial carrier on the
counsel identified below, and caused an electronic version to be transmitted to the
counsel identified below, pursuant to Rule 29.5 of the Rules of this Court. All parties
required to be served have been served.

Counsel for Respondent:
Noel J. Francisco
SOLICITOR GENERAL
U.S. DEPARTMENT OF JUSTICE

950 Pennsylvania Ave, NW
Room 5616
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@usdoj.gov

Lawrence W. DeMille-Wagrnan
Christopher J. Deal

CONSUMER FINANCIAL PROTECTION
BUREAU

1700GSt,NW
Washington, DC 20552
(202) 435-7957
lawrence.wagrnan@cfpb.gov
christopher.deal@cfpb.gov

